Audit Report



Return to the USDOJ/OIG Home Page




Office of Juvenile Justice and Delinquency Prevention,
Comprehensive Community-Wide Approach to Gang Prevention, Intervention and Suppression Program Grant Awarded to the Riverside Police Department, Grant Number 1998-JD-FX-0005, Riverside, California

Report No. GR-90-04-009


May 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Comprehensive Community-Wide Approach to Gang Prevention, Intervention and Suppression Program grant awarded by the U.S. Department of Justice, Office of Juvenile Justice and Delinquency Prevention (OJJDP) to the Riverside Police Department (RPD) located in Riverside, California.  The purpose of this grant was to adapt, implement and test a comprehensive program model designed for gang prevention, intervention and suppression.  This program is intended to mobilize leadership within the Riverside community and reduce the incidence of gang membership and gang-related violence and crime.  As of September 30, 1998, the RPD was awarded a total of $1,363,985 to engage community leadership in the implementation of a comprehensive, community-wide action plan in Riverside, California.  The plan includes community organizations, opportunities, and suppression of serious and violent gang related crime.  

We tested the RPD's accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant. 

We found the RPD to be in compliance with OJJDP's grant requirements.  Our audit revealed that adequate controls were taken over the accounting process and records relating to the grant.  We determined that costs claimed for reimbursement were allowable, supported and in accordance with applicable laws, regulations, guidelines and terms and conditions of the grant. 

Our audit objectives, scope, and methodology appear in the Appendix.